Bruce A. Wagman
T: 415.275.8540
F: 415.275.8551
bwagman@rshc-law.com

May 5, 2021
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

North American Meat Institute v. Bonta, No. 20-1215
Request for Extension of Time

Dear Mr. Harris:
Along with the State of California, Intervenor-Respondents initially waived their brief in
opposition in this matter. The Court called for a response from all respondents on April 22, 2021,
with a response due date of May 24, 2021. Pursuant to Rule 30.4, Intervenor-Respondents
respectfully request a 30-day extension on that response, up to and including Wednesday, June 23,
2021. We understand that Petitioner North American Meat Institute does not consent to, and
opposes, this reasonable request.
Counsel for Intervenor-Respondents has multiple reasons for this request. First, in this
matter, undersigned counsel represents seven different organizations, and so is required to circulate
any substantive submission to all clients, entertain questions and discuss the issues and strategy
with all clients, review all comments and concerns, and combine and incorporate all of these
matters into the briefing submitted to this Court.
Second, the undersigned has several other competing deadlines and responsibilities in the
next three weeks, which will hinder his ability to fully prepare the requested brief in this case.
Those deadlines and responsibilities include, but are not limited to:
•

Lead counsel in mediation this week in Eldridge v. Collins (Alameda Co. Superior
Court).

•

Lead counsel in preparation of emergency writ of possession to be filed next week in
Fernandez v. Baucus (San Francisco Superior Court).

•

Preparation of demurrer due May 10, 2021, in Pet Assistance Foundation v. San
Diego Humane Society (San Diego Superior Court).

Further, the extra time is requested in order to have adequate time to confer with the state
respondent and thoroughly prepare a response to not only Petitioner’s brief, but also the one filed
in this matter by a coalition of twenty amici states.
456 Montgomery Street, 16th Floor, San Francisco, CA 94104
Office: 415.275.8550 • Fax: 415.275.8551 • rshc-law.com

Hon. Scott S. Harris, Clerk
May 5, 2021
Page 2
Finally, the requested extension (Intervenor-Respondents’ first and only anticipated such
request) would not unduly delay resolution in the matter. Petitioner’s suggestion that IntervenorRespondents have had “almost three months since the filing of the petition” to prepare a response
ignores the fact that Intervenor-Respondents were under no obligation to work on preparing a
response until the Court’s recent call for a response. Respondents initially waived their right to file
briefs in opposition because the petition clearly does not meet this Court’s criteria for certiorari. It
seeks review of an unpublished two-page order denying interlocutory appellate review of the
denial of a preliminary injunction, and alleges no credible circuit split or conflict with any decision
of this Court. Now that the Court has requested a response we will prepare one diligently, but it is
entirely routine for that exercise to require more than the initial thirty days—particularly in a case
involving this many parties and potential amici to coordinate.
Petitioner’s timing concerns are also misplaced. When the petition was filed it was already
too late for this case to be argued and heard this Term. In the unlikely event that certiorari was
granted at the long conference in September, the Court could consider appropriate scheduling of
the briefing and argument. Petitioner also has not previously displayed the artificial sense of
urgency that it now musters in opposition to a completely routine and necessary extension request.
The campaign to pass Proposition 12 began in 2017 and succeeded in November of 2018.
Petitioner not only did not formally oppose the ballot measure, but also did not file its complaint
challenging the law until October of 2019—almost a year after the overwhelmingly popular
initiative became law in California. Petitioner also has not sought any emergency injunction
pending certiorari from either of the courts below or from this Court. And as noted, the petition
essentially seeks error correction of an unpublished and interlocutory preliminary injunction ruling
in a case that has barely gotten started. There is no reason why this Court’s consideration of this
petition cannot proceed in accordance with its normal processes.
Accordingly, Intervenor-Respondents respectfully join the State of California in requesting
a 30-day extension, up to and including Wednesday, June 23, 2021.
Sincerely,
/s/ Bruce A. Wagman
Bruce A. Wagman
RILEY SAFER HOLMES & CANCILA LLP
Counsel for Intervenor-Respondents
The Humane Society of the United Sates, Animal
Legal Defense Fund, Animal Equality, The Humane
League, Farm Sanctuary, Compassion in World
Farming USA, Animal Outlook
BAW/mrv
4811-0922-6216, v. 1

